                                     May 17, 1999


Mr. Ken Powell

Acting Assistant Regional Commissioner

 for Management and Operations Support

Social Security Administration

601 E. 12th Street

Kansas City, Missouri 64106


Dear Mr. Powell:


The enclosed final report presents the results of our review of Administrative Costs at

the Missouri Disability Determination Services (A-07-97-51006). The objectives of our

audit were to determine whether: 1) expenditures and obligations were properly

authorized and disbursed; 2) Federal funds withdrawn agreed with total expenditures;

and 3) internal controls over the accounting and reporting of administrative costs were

adequate.


You may wish to comment on any further action taken or contemplated on our

recommendations. If you choose to comment, please provide your comments within the

next 60 days. If you wish to discuss the final report, please call me or have your staff

contact Roger Normand at (617) 565-1822 or Mark Bailey at (816) 936-5591.


                                                Sincerely,




                                                Daniel R. Devlin
                                                Acting Assistant Inspector General
                                                 for Audit

Enclosure

cc:

Michael Grochowski

Regional Commissioner, Region VII


Neil Scully

Administrator

Missouri Disability Determination Services

           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




    ADMINISTRATIVE COSTS
       CLAIMED AT THE
     MISSOURI DISABILITY
   DETERMINATION SERVICES

     May 1999   A-07-97-51006




AUDIT REPORT

                   E X E C U TI V E S U M M AR Y


OBJECTIVE

The objectives of our audit of the administrative costs claimed by the Missouri Disability
Determination Services (MODDS) were to determine whether: 1) expenditures and
obligations were properly authorized and disbursed; 2) Federal funds withdrawn agreed
with total expenditures; and 3) internal controls over the accounting and reporting of
administrative costs were adequate.

BACKGROUND

In accordance with Federal regulations, each State’s Disability Determination Services
(DDS) makes disability determinations under the Social Security Administration’s (SSA)
Disability Insurance and Supplemental Security Income programs. In making disability
determinations, DDSs are authorized to purchase medical examinations, x-rays and
laboratory tests on a consultative basis to supplement evidence obtained from
claimants’ physicians or other treating sources.

SSA reimburses DDSs for 100 percent of allowable expenditures. Each year, SSA
determines the amount of funding authorization. Once approved, the DDS is allowed to
withdraw Federal funds through the Department of Health and Human Services’ (HHS)
Payment Management System (PMS) operated by HHS’ Division of Payment
Management (DPM).1 At the end of each quarter of the Fiscal Year, DDSs submit
Form SSA-4513 (Report of Obligations) to SSA to account for program expenditures
and unliquidated obligations.

RESULTS OF REVIEW

We conducted an audit of the administrative costs claimed by MODDS for the period
October 1, 1994 through September 30, 1996. We found:

•	 Vendor refunds and uncashed checks2 totaling $107,428 were not reported on the
   Report of Obligations.


1
  During our audit period, PMS disbursed SSA funds. Beginning in Fiscal Year 1997, SSA funds were
disbursed by the Department of the Treasury through the Automated Standard Application for Payments
system.
2
  Vendor refunds consisted of monies returned to MODDS primarily because of MODDS billing errors.
Uncashed checks consisted of monies returned to MODDS when payees failed to cash State issued
checks within 12 months of issuance.


                                                  i
•	 SSA was not reimbursed for MODDS’s portion of the $11,781 received by the State
   for the sale of surplus property.

•	 Federal funds withdrawn exceeded allowable expenditures by $17,663 for FY 1995,
   and were $98,459 less than expenditures during FY 1996.

Prior to the end of our field work, MODDS initiated actions to address some of the
issues disclosed in our review. MODDS submitted to SSA a revised final Report of
Obligations for FYs 1995 and 1996 and reduced expenditures by $107,428. MODDS
also reconciled the FYs 1995 and 1996 expenditures reported on the revised final
Report of Obligations to the PMS disbursements. The reconciliation results were
reported to HHS’ DPM and the FYs 1995 and 1996 PMS allotment account balances
were properly adjusted. The PMS disbursements were also reconciled to the cash
withdraws recorded in the Financial Management (FM) system.

RECOMMENDATIONS

MODDS addressed some of the issues disclosed in our review; however, further actions
are needed. Therefore, we recommend that SSA require the MODDS to:

•	 Establish accounting procedures for reporting amounts received from vendor
   refunds and uncashed checks on the Report of Obligations.

•	 Refund to SSA an appropriate portion of the $11,781 received by the State for the
   sale of surplus property.

•	 Establish accounting procedures for reporting amounts received from the sale of
   MODDS surplus property on the Report of Obligations.

•	 Perform a quarterly reconciliation of cash withdraws recorded in the State’s FM
   system to disbursements reported in the Department of the Treasury’s Automated
   Standard Application for Payments system.

AGENCY COMMENTS

SSA agreed with the results of our review and stated that MODDS had taken actions to
implement our recommendations. In addition, SSA concurred with the State’s proposal
to refund to SSA $3,417 of the $11,781 received by the State for the sale of surplus
property (see Appendix C for the full text of SSA’s comments).




                                           ii
                        T AB L E O F C O N T E N T S


                                                                                                              Page


EXECUTIVE SUMMARY ......................................................................................... i


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW .......................................................................................... 3


    VENDOR REFUNDS AND UNCASHED CHECKS ........................................... 3


    SURPLUS PROPERTY ..................................................................................... 3


    FEDERAL FUNDS WITHDRAWN ..................................................................... 4


CONCLUSIONS AND RECOMMENDATIONS ...................................................... 6



APPENDICES
APPENDIX A – Obligations Reported/Allowed MODDS for Fiscal Year 1995

APPENDIX B – Obligations Reported/Allowed MODDS for Fiscal Year 1996

APPENDIX C – Agency Comments

APPENDIX D – Major Report Contributors

APPENDIX E – SSA Organizational Chart

                            I N TR O D U C TI O N


OBJECTIVE

The objectives of our audit of the administrative costs claimed by the Missouri Disability
Determination Services (MODDS) were to determine whether: 1) expenditures and
obligations were properly authorized and disbursed; 2) Federal funds withdrawn agreed
with total expenditures; and 3) internal controls over the accounting and reporting of
administrative costs were adequate.

BACKGROUND

The Disability Income (DI) program, established in 1954 under title II of the Social
Security Act, provides benefits to wage earners and their families in the event the wage
earner becomes disabled. In 1972, Congress enacted title XVI, the Supplemental
Security Income (SSI) program (Public Law 92-603). SSI provides a nationally uniform
program of income and disability coverage to financially needy individuals who are
aged, blind or disabled.

The Social Security Administration (SSA) is primarily responsible for implementing the
general policies governing the development of disability claims under the DI and SSI
programs. In accordance with Federal regulations, each State’s Disability
Determination Services (DDS) makes disability determinations under both the DI and
SSI programs. In carrying out its obligations, each DDS is responsible for determining
whether an individual is disabled and ensuring that adequate evidence is available to
support its determinations. To assist in making proper disability determinations, the
DDS is authorized to purchase medical examinations, x-rays and laboratory tests on a
consultative basis to supplement evidence obtained from claimants’ physicians or other
treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures. Each year, SSA
determines the amount of funding authorization. Once approved, the DDS is allowed to
withdraw Federal funds through the Payment Management System (PMS). The
Department of Health and Human Services’ Division of Payment Management (DPM)
was responsible for operating the PMS and for maintaining records of SSA funds
disbursed to each State DDS.1 At the end of each quarter of the fiscal year (FY), DDSs
submit to SSA the Report of Obligations to account for program expenditures and
unliquidated obligations.


1
  Beginning in Fiscal Year 1997, cash disbursements were made by the Department of the Treasury
through the Automated Standard Application for Payments system.


                                                 1

MODDS claimed administrative costs of $47,693,349 to process claims under SSA’s DI
and SSI programs for the period October 1, 1994 through September 30, 1996
(see Appendices A and B). MODDS is a component within the Missouri Division of
Vocational Rehabilitation (MODVR) under the Missouri Department of Elementary and
Secondary Education (MODESE). MODVR performed MODDS’ primary accounting
functions including withdraws of Federal funds.

SCOPE AND METHODOLOGY

We conducted an audit of the administrative costs claimed by MODDS for the period of
October 1, 1994, through September 30, 1996 (FYs 1995 and 1996). Our audit was
conducted in accordance with generally accepted government auditing standards.
Fieldwork was performed from October 1997 through September 1998 at MODVR and
MODDS in Jefferson City, Missouri; the SSA regional office in Kansas City, Missouri;
and the Office of Audit in Kansas City, Missouri.

To conduct our audit, we reviewed: 1) SSA’s Program Operations Manual System and
other Federal laws and instructions pertaining to DDS administrative costs and
withdraws of Federal funds; 2) MODESE and MODVR policies and procedures on the
recording and reporting of expenditures and obligations; and 3) the Missouri Office of
the Auditor General’s working papers for State FYs2 1994 through 1996 Single Audits
as they related to the MODDS. We also performed an examination of administrative
expenditures (personnel, medical services, indirect and all other nonpersonnel costs)
incurred and claimed by MODDS for the 2-year period ended September 30, 1996.
Additionally, for FYs 1995 and 1996, we reviewed MODVR accounting records for
MODDS administrative costs and cash withdraws.

We reviewed internal controls applicable to the recording and reporting of funds
properly authorized and disbursed for the 2-year period ended September 30, 1996.
We found the internal controls were adequate except for the weaknesses identified in
this report. Our review of the internal controls included tests of each line item on the
Report of Obligations including personnel, medical, indirect and all other nonpersonnel
costs.




2
  The State of Missouri’s FY begins on July 1 and ends on June 30 (i.e., State FY 1994 began on
July 1, 1993, and ended on June 30, 1994).


                                                  2

                     R E S U L T S O F R E V I E W


Our review disclosed that vendor refunds and uncashed checks totaling $107,428 were
not reported on the Report of Obligations. Also, SSA was not reimbursed for MODDS’
portion of the $11,781 received by the State for the sale of surplus property. In addition,
our review disclosed that cash withdraws exceeded expenditures by $17,663 during
FY 1995, and were $98,459 less than expenditures during FY 1996.

VENDOR REFUNDS AND UNCASHED CHECKS

MODDS did not report the amounts received from vendor refunds and uncashed checks
on the Report of Obligations for FYs 1995 and 1996. As a result, the expenditures
reported to SSA on the Report of Obligations were overstated by $107,428. Vendor
refunds consisted of monies returned to MODDS primarily because of billing errors.
Uncashed checks consisted of monies returned to MODDS when payees failed to cash
State issued checks within 12 months of issuance. According to MODVR officials, most
vendor refunds and uncashed checks related to medical services payments to purchase
consultative examinations and medical evidence of record.

Vendor refunds and uncashed checks were posted to a refund account in MODVR’s
Financial Management (FM) system. However, when reporting costs to SSA on the
Report of Obligations, expenditures were not reduced by the refund account amount. 3

SURPLUS PROPERTY

During FYs 1995 and 1996, MODVR received proceeds of $11,781 from the sale of
surplus property. The proceeds were for the sale of both MODVR and MODDS
property. However, MODVR did not reimburse SSA for MODDS’s portion of the
$11,781. According to SSA instructions, proceeds from the sale of property that was
paid for by SSA should be accounted for on the Report of Obligations by reducing the
amount of expenditures.

We requested surplus property records from MODVR so that we could identify the
portion of the $11,781 applicable to MODDS property. MODVR stated that records did
not exist which identified the sale amount of each piece of property sold or that
identified proceeds separately between MODVR and MODDS surplus property.



3
  The impact on cash withdraws as a result of MODDS not reporting the $107,428 in vendor refunds and
uncashed checks on the Report of Obligations was accounted for in our comparison of cash withdraws to
expenditures (see Footnote 5).


                                                  3

MODVR proposed returning $3,417 of the $11,781 to SSA. MODVR calculated the

$3,417 by: 1) dividing the acquisition cost of the MODDS surplus property ($192,484)

by the total acquisition cost of MODVR and MODDS property ($653,068) which equals

29 percent, and 2) applying the 29 percent to the surplus property proceeds

($11,781 x 29 percent = $3,417). We are making no judgments as to the

reasonableness of MODVR’s proposal and are leaving to SSA’s discretion the amount

of the $11,781 to be refunded.4


FEDERAL FUNDS WITHDRAWN

For FY 1995, MODDS’s withdraws of Federal funds exceeded its allowable
expenditures by $17,663. For FY 1996, withdraws were $98,459 less than
expenditures. A comparison of MODDS withdraws to expenditures for the audited
period is shown below.

              COMPARISON OF CASH WITHDRAWS TO EXPENDITURES
             Fiscal            Cash                 MODDS                Over (Under)
              Year           Withdraws            Expenditures5             Draw
              1995         $22,741,789                $22,724,126             $17,663
              1996          24,759,919                 24,858,378             (98,459)
             TOTAL         $47,501,708                $47,582,504           ($80,796)

Our analysis disclosed that withdraws reported by MODDS in the FM system were not
the same amounts reported as disbursements by DPM in the PMS. This occurred
because of clerical input errors in posting PMS disbursements to the FM system. The
MODDS did not have procedures in place to ensure that PMS disbursements were
properly posted to the FM system (i.e., a periodic reconciliation of PMS disbursements
to cash withdraws recorded in the FM system).

Our review also disclosed the following inconsistencies between MODDS’s and DPM’s
detailed cash withdraw records:

•	 A January 9, 1995 disbursement in the amount of $500,000 from the FY 1995 PMS
   allotment account was recorded in the FM system as a FY 1994 PMS allotment
   account withdraw.

4
   In commenting on the draft report, SSA agreed with MODVR’s proposal to refund $3,417 to
SSA (see Appendix C). The impact on cash withdraws as a result of MODDS not reporting the $3,417
in surplus property on the Report of Obligations was accounted for in our comparison of cash withdraws
to expenditures (see Footnote 5).
5
  MODDS expenditures are the SSA-4513 expenditures claimed by MODDS ($47,693,349) on the Report
of Obligations less the net recommended audit adjustments reported in Appendix A and B to this report
($98,307 + $12,538 = $110,845).


                                                  4
•	 An October 13, 1995, disbursement in the amount of $850,000 from the FY 1995
   PMS allotment account was recorded in the FM system as a $550,000 FY 1995
   PMS allotment account withdraw and a $300,000 FY 1996 PMS allotment account
   withdraw.

•	 An October 18, 1995, disbursement in the amount of $450,000 from the FY 1995
   PMS allotment account was recorded in the FM system as a $300,000 FY 1995
   PMS allotment account withdraw and a $150,000 FY 1996 PMS allotment account
   withdraw.

•	 A July 1, 1996, disbursement in the amount of $16,084 from the FY 1995 PMS
   allotment account was recorded in the FM system as a FY 1996 PMS allotment
   account withdraw.

•	 An April 7, 1997, disbursement in the amount of $5,000 from the FY 1997 PMS
   allotment account was recorded in the FM system as a FY 1996 PMS allotment
   account withdraw.

The MODDS had procedures in place to reconcile expenditures to cash withdraws
recorded in the FM system. However, these procedures were ineffective since MODDS
did not have procedures in place to ensure that PMS disbursements were recorded
correctly in the FM system. Had there been procedures in place to periodically
reconcile PMS disbursements to the cash withdraws recorded in the FM system, these
inconsistencies would have been detected.




                                         5

 CONCLUSIONS AND RECOMMENDATIONS


Our review disclosed that MODDS did not have procedures in place for reporting vendor
refunds and uncashed checks on the Report of Obligations. As a result, vendor refunds
and uncashed checks totaling $107,428 were not accounted for on the Report of
Obligations for FYs 1995 and 1996.

Our review also disclosed that MODDS did not have procedures in place for reporting to
SSA the amounts received from the sale of MODDS surplus property. As a result, SSA
was not reimbursed for MODDS’s portion of the $11,781 in surplus property proceeds
received by the State during FYs 1995 and 1996. In responding to the draft report, SSA
agreed with MODVR’s proposal to refund $3,417 of the $11,781 received by the State
for the sale of surplus property.

Our review of cash withdraws disclosed that MODDS did not have procedures in place
to ensure that PMS disbursements were properly posted to the FM system. As a result,
withdraws exceeded expenditures by $17,663 during FY 1995, and were $98,459 less
than expenditures during FY 1996.

Prior to the end of our field work, MODDS initiated actions to address some of the
issues disclosed in our review. MODDS submitted a revised final Report of Obligations
for FYs 1995 and 1996 and reduced expenditures by $107,428. MODDS also
reconciled the FYs 1995 and 1996 expenditures reported on the revised final Report of
Obligations to the PMS disbursements. The reconciliation results were reported to DPM
and the FYs 1995 and 1996 PMS allotment account balances were properly adjusted.
The PMS disbursements were also reconciled to the cash withdraws recorded in the FM
system.

MODDS addressed some of the issues disclosed in our review; however, further actions
are needed. Therefore, we recommend that SSA require the MODDS to:

1. 	 Establish accounting procedures for reporting amounts received from vendor
     refunds and uncashed checks on the Report of Obligations.

2. Refund to SSA an appropriate portion of the $11,781 received by the State for the
   sale of surplus property.

3. 	 Establish accounting procedures for reporting amounts received from the sale of
     MODDS surplus property on the Report of Obligations.




                                           6

4. 	 Perform a quarterly reconciliation of cash withdraws recorded in the State’s FM
     system to disbursements reported in the Department of the Treasury’s Automated
     Standard Application for Payments system.

AGENCY COMMENTS

SSA agreed with the results of our review and stated that MODDS had taken actions to
implement our recommendations (see Appendix C for the full text of SSA’s comments).




                                          7

APPENDICES

                                                                                                                                APPENDIX A



                MODDS OBLIGATIONS REPORTED/ALLOWED FOR

                            FISCAL YEAR 1995



 COSTS              TOTAL OBLIGATIONS
                      UNLIQUIDATED OBLIGATIONS
                         EXPENDITURES



                              NET                                         NET                                     NET
                          RECOMMENDED                                RECOMMENDED                              RECOMMENDED
  COSTS     REPORTED      ADJUSTMENTS      ALLOWABLE      REPORTED    ADJUSTMENTS   ALLOWABLE   REPORTED      ADJUSTMENTS      ALLOWABLE

PERSONNEL   $11,860,841              $0     $11,860,841         $0             $0          $0   $11,860,841              $0     $11,860,841

MEDICAL       7,573,065         (96,279)      7,476,786          0              0           0     7,573,065         (96,279)      7,476,786

INDIRECT      1,294,330               0       1,294,330          0              0           0     1,294,330               0       1,294,330

ALL OTHER     2,094,197          (2,028)      2,092,169          0              0           0     2,094,197          (2,028)      2,092,169

TOTAL       $22,822,433        ($98,307)    $22,724,126         $0             $0          $0   $22,822,433        ($98,307)    $22,724,126
                                                                                                                               APPENDIX B



               MODDS OBLIGATIONS REPORTED/ALLOWED FOR

                           FISCAL YEAR 1996



 COSTS              TOTAL OBLIGATIONS
                      UNLIQUIDATED OBLIGATIONS
                         EXPENDITURES



                              NET                                         NET                                     NET
                          RECOMMENDED                                RECOMMENDED                              RECOMMENDED
  COSTS     REPORTED      ADJUSTMENTS      ALLOWABLE      REPORTED    ADJUSTMENTS   ALLOWABLE   REPORTED      ADJUSTMENTS      ALLOWABLE

PERSONNEL   $11,588,909              $0     $11,588,909         $0             $0          $0   $11,588,909              $0     $11,588,909

MEDICAL       9,087,935         (11,149)      9,076,786          0              0           0     9,087,935         (11,149)      9,076,786

INDIRECT      1,285,783               0       1,285,783          0              0           0     1,285,783               0       1,285,783

ALL OTHER     2,908,289          (1,389)      2,906,900          0              0           0     2,908,289          (1,389)      2,906,900

TOTAL       $24,870,916        $(12,538)    $24,858,378         $0             $0          $0   $24,870,916        ($12,538)    $24,858,378
                   APPENDIX C



AGENCY COMMENTS

                                                                               APPENDIX D



          MAJOR REPORT CONTRIBUTORS


Office of the Inspector General


Roger Normand, Director, Northern Program Audit Division


Mark Bailey, Acting Deputy Director


Ron Bussell, Auditor


Wanda Craig, Auditor



For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-07-97-51006.
                            APPENDIX E



SSA ORGANIZATIONAL CHART

